Brian H. Trammell* (1958-2016) A Ww TR AMMEL L, Physical Address:

Terrill L. Adkins*

 

1900 N. Winston Road

Kenneth W. Ward aaa — A DK N & W A D PC Suite 600
James C. “Chris” Cone* CEE I S R Knoxville, TN 37919
Elijah T. Settlemyre

anSar ATTORNEYS AT LAW wii s
Ryan L. Sarr Mailing Address:
Laura S. Hash** j P.O, Box 51450

1 Madkinswardpe.

Toby R. Carpenter wee framemeladeinswardpe, com Knoxville, TN 37950-1450

* Tn. Sup. Ct. R31 Civil Mediator
** Also admitted in Mississippi

Email: kenward@tawpc.com

September 7, 2021
Clerk, Supreme Court of the United States Via Federal Express
1 First Street, NE Overnight Delivery

Washington, DC 20543-0001

Re: Michael Murphy v. Richard Sarta, Christina Sarta, and Rebecca Keck d/b/a

Inge! 01
0. 21-228

 

 

Dear sirs:

This will acknowledge receipt of your letter dated August 17, 2021, to Michael Murphy,
advising that his “petition for writ of certiorari” was filed on August 13, 2021 and placed on the
docket August 17, 2021 as No. 21-228. Included with the letter were forms for “Pioof of
Service” and a “Notice” to me that any “brief in opposition” was due on Thursday, September
16, 2021. The letter also contained a form for a “Waiver” of any response to the writ.

Iam not currently a member of the Supreme Court Bar, but by separate correspondence, I am,
today, simultaneously submitting my Application for Admission to Practice before the Supreme
Court of the United States with all supporting, required documentation, “Statement of Sponsors,”
and “Motion for Admission,” along with the required filing fee.

I consulted the Court’s website for instructions on a response, and I also reached out to the
helpline for the electronic filling registration. During that conversation, I was advised that since
I was not a member of the Supreme Court Bar, I could not utilize the e-filing system. I was also
advised that the next “Order List” will not be published until October 4, 2021, which would be
after the deadline for filing the response on behalf of my clients.

Lastly, I was also told that I could submit this letter requesting an extension of the deadline in
which to file the response to the writ petition until after my application for admission is received,
reviewed, and hopefully approved, making me a Member of the Supreme Court Bar.

As such, please accept this as my formal request that my clients be given a sixty (60) day
extension in which to file their response to Mr. Murphy’s “petition for writ of certiorari” in this
matter. This should allow for sufficient time for my application for bar admission to be received,
reviewed, and hopefully approved.

RECE

SUPREME COURT, U,

Phone: 865-330-2577
Fax: 865-330-2578

 
Supreme Court of the United States
Office of the Clerk

September 7, 2021

Page 2

By copy of this letter, I am advising Mr. Murphy of this request and of my application for
membership in the Supreme Court Bar.

Thank you for this consideration, and please feel free to contact me by telephone or email if you
have any questions or need any additional information.

Best regards,

TRAMMELL, ADKINS & WARD, P.C.

By: 7 MiLllad
Kenneth W. Ward

KWW:kww

ce: Mr. Michael C. Murphy
Ms. Kristi Poole (via email)
(Claim no. 707373-GH)

KWW/2220-1380-Sarta/Murphy
